No. 21-194
In the

Supreme Court of the United States
CALIFORNIA TRUCKING ASSOCIATION, INC., et al.,
Petitioners,
v.
ROB BONTA, ATTORNEY GENERAL
OF CALIFORNIA, et al.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Ninth Circuit

BRIEF OF 48 STATE TRUCKING
ASSOCIATIONS AS AMICI CURIAE IN
SUPPORT OF PETITIONERS
Philip A. Talmadge
Counsel of Record
Talmadge/Fitzpatrick
2775 Harbor Avenue SW,
3rd Floor, Suite C
Seattle, WA 98126
(206) 574-6661
phil@tal-fitzlaw.com
Counsel for Amici Curiae
307057

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
IDENTIT Y A ND INTEREST OF A MICI
CURIAE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
(1) Introduction  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
(2) Owner-Operators in the Trucking Industry  . . . 3
(3) The Relationship Between Carriers and
Owner-Operators Is Strictly Regulated
by Federa l Law a nd Super v ised by
Federal Agencies . . . . . . . . . . . . . . . . . . . . . . . . . . 7
(4) Preemptive Effect of the FAAAA . . . . . . . . . . . . 9
(5) AB-5 Effectively Eliminates the OwnerOperator Business Model in the Trucking
Industry in Violation of the FAAAA . . . . . . . . . 11
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
APPENDIX  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a

ii
TABLE OF CITED AUTHORITIES
Page
CASES
American Trucking Ass’ns, Inc. v.
City of Los Angeles,
596 F.3d 602 (9th Cir. 2010) . . . . . . . . . . . . . . . . . . . . 10
Bedoya v. American Eagle Express, Inc.,
914 F.3d 812 (3d Cir. 2019) . . . . . . . . . . . . . . . . . . . . . 13
Bostain v. Food Express,
159 Wn.2d 700, 153 P.3d 846, cert. denied,
552 U.S. 1040 (2007) . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Cal. Trucking Ass’n v. Su,
903 F.3d 953 (9th Cir. 2018), cert. denied,
139 S. Ct. 1331 (2019)  . . . . . . . . . . . . . . . . . . . . . . . . . 10
California Trucking Ass’n v. Becerra,
433 F. Supp. 3d 1154 (S.D. Cal. 2020) . . . . . . . . . . 4, 11
California Trucking Ass’n v. Bonta,
996 F.3d 644 (9th Cir. 2021) . . . . . . . . . . . . . . . . . . . . . 3
CEVA Freight, LLC v. Employment Dep’t,
279 Or. App. 570, 379 P.3d 776, review denied,
360 Or. 751 (2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Coffman v. Unigroup, Inc.,
2019 WL 3323369 (M.D. Fla. 2019) . . . . . . . . . . . . . . . 9

iii
Cited Authorities
Page
Cole v. City of Dallas,
314 F.3d 730 (5th Cir. 2002) . . . . . . . . . . . . . . . . . . . . . 9
Costello v. BeavEx, Inc.,
810 F.3d 1045 (7th Cir. 2016), cert. denied,
137 S. Ct. 2289 (2017) . . . . . . . . . . . . . . . . . . . . . . . . . 15
Delivery Express, Inc. v. Sacks,
728 Fed. Appx. 730 (9th Cir. 2018)  . . . . . . . . . . . . . . 15
Dilts v. Penske Logistics, LLC,
769 F.3d 637 (9th Cir. 2014), cert. denied,
575 U.S. 996 (2015)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Dynamex Operations W. v. Superior Court,
4 Cal. 5th 903, 416 P.3d 1 (2018) . . . . . . . . . . . . . . . . . 11
Henry Industries, Inc. v.
Dep’t of Labor & Indus.,
195 Wn. App. 593, 381 P.3d 172 (2016)  . . . . . . . . . . . 15
Hillman v. Maretta,
569 U.S. 483 (2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Home Transp., Inc. v. Idaho Dep’t of Labor,
318 P.3d 940 (Ida. 2014)  . . . . . . . . . . . . . . . . . . . . . . . 14
In re Arctic Express, Inc.,
636 F.3d 781 (6th Cir. 2011)  . . . . . . . . . . . . . . . . . . . . . 7

iv
Cited Authorities
Page
In re Federal Preemption of Provisions of the
Motor Carrier Act,
566 N.W.2d 299 (Mich. App. 1997), review denied,
587 N.W.2d 632 (Mich. 1998), cert. denied,
525 U.S. 1018 (1998)  . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Mass. Delivery Ass’n v. Healey,
117 F. Supp. 3d 86 (D. Mass), aff’d,
821 F.3d 187 (1st Cir. 2016) . . . . . . . . . . . .  13, 15, 16, 17
Massachusetts Delivery Ass’n v. Coakley,
769 F.3d 11 (1st Cir. 2014) . . . . . . . . . . . . . . . . . . . . . . 13
Morales v. Trans World Airlines, Inc.,
504 U.S. 374 (1992)  . . . . . . . . . . . . . . . . . . . . . . . .  10, 17
Owner-Operator Independent Drivers Ass’n v.
Swift Transportation Co., Inc.,
367 F.3d 1108 (9th Cir. 2004) . . . . . . . . . . . . . . . . . . . . 7
Remington v. J.B. Hunt Transport, Inc.,
2016 WL 4975194 (D. Mass. 2016) . . . . . . . . . . . . . . . 12
Rowe v. New Hampshire Motor Transp. Ass’n,
552 U.S. 364 (2008) . . . . . . . . . . . . . . . . . . . . . . . . .  9, 17
Sanchez v. Lasership, Inc.,
937 F. Supp. 2d 730 (E.D. Va. 2013)  . . . . . . . . . . . . . 13
Schwann v. FedEx Ground Package Sys., Inc.,
813 F.3d 429 (1st Cir. 2016) . . . . . . . . . . . . . . . . . .13, 16

v
Cited Authorities
Page
Swanson Hay Co. v. State Emp. Security Dep’t,
1 Wn. App. 2d 174, 404 P.3d 517 (2017),
review denied, 191 Wn.2d 1004, cert. denied,
139 S. Ct. 605 (2018) . . . . . . . . . . . . . . . . . . . . . . . . . . 14
STATUTES AND OTHER AUTHORITIES
49 U.S.C. § 14102(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
49 U.S.C. § 14501(c)(i) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
49 U.S.C. § 14501(c)(1)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
49 C.F.R. § 376.11 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
49 C.F.R. § 376.12 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
49 C.F.R. § 376.12(h) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .8
49 C.F.R. § 382.601 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
49 C.F.R. Part 376  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Douglas C. Grawe, Have Truck, Will Drive:
The Tr ucking Industr y and the Use of
Independent Owner-Operators Over Time,
35 Transp. L.J. 115 (2008) . . . . . . . . . . . . . . . . . . . . . . 3
H. R. Conf. Rep. No. 103-677  . . . . . . . . . . . . . . . . . . . . . . 9

vi
Cited Authorities
Page
Jessica Goldstein, The Lease and Interchange
of Vehicles in the Motor Carrier Industry,
32 Transp. L. J. 131 (Spring 2005) . . . . . . . . . . . . . . . 8

1
IDENTITY AND INTEREST OF AMICI CURIAE1
The amici here are the state trucking associations
of all fifty states with the exception of California and
Minnesota. See Appendix. California’s association is a
party and Minnesota’s is submitting its own brief. The
amici would be happy to provide the Court with individual
historical information on each association, if it so requires.
These associations share common characteristics that
form the basis for their status as amici curiae. They all
represent the trucking industry before state and federal
legislative, regulatory and enforce­ment agencies, and
serve as the industry’s primary voice on transportation
and other public policy issues in their respective States.
They are member-driven organizations dedicated to
representing the trucking industry by advocating for laws
and regulations that enhance the safety, efficiency, and
profitability of that industry. They strive to enhance the
industry’s public status and the business climate in their
respective States. They regularly appear as a party or
amicus curiae on trucking industry issues before state
and federal courts.
Amici each have members who regularly contract
with independent owner-operators. Their members
sometimes conduct operations in the State of California,
particularly if they are in States geographically proximate
1. No counsel for a party authored this brief in whole or in
part, and no such counsel or party made a monetary contribution
intended to fund the preparation or submission of this brief. No
person other than amici curiae, their members, or their counsel
made a monetary contribution to its preparation or submission.
The parties were provided proper notice and have consented to
the filing of this brief.

2
to California. Their members operate in the other States
throughout the United States as well. Thus, they have an
acute interest both in the preservation of the independent
owner-operator model in the trucking industry, and in
ensuring that the Congressional policy establishing a
deregulated trucking industry is not undermined by a
patchwork of State-level impediments to the safe and
efficient flow of commerce.
SUMMARY OF ARGUMENT
Owner-operators are vital to the modern American
trucking industry, but California’s Assembly Bill 5 (“AB5”) makes the use of owner-operators in California’s
trucking industry impossible by its utilization of the
so-called ABC test as to whether an employment or
independent contractor relationship exists. That decision
will have repercussions for all the amici.
AB-5 is preempted by 49 U.S.C. § 14501(c)(i), the
Federal Aviation Administration Authorization Act
(“FAAAA”). The application of the FAAAA by the United
States Court of Appeals for the Ninth Circuit is contrary
to this Court’s FAAAA precedents. California has, in
effect, restructured the California trucking industry by
foreclosing the use of owner-operators, affecting prices,
routes, and services in a federally-regulated industry.
AB-5 is preempted by the FAAAA accordingly.
ARGUMENT
(1) Introduction
The amici curiae ask this Court to grant the California
Trucking Association’s (“CTA”) petition because AB-5

3
enacted by the California Legislature, and the decision of
the United States Court of Appeals for the Ninth Circuit
in California Trucking Ass’n v. Bonta, 996 F.3d 644 (9th
Cir. 2021) below determining that AB-5 is not preempted
by the FAAAA, have such a profound adverse impact on
them and the American trucking industry generally. It
is noteworthy that every state trucking association in
America agrees with this concern.
Congress de-regulated the trucking industry to
establish national standards for that industry, rather than
a patchwork quilt of local regulations. Extensive federal
regulations govern the relationship between trucking
carriers and independent contractors known in the
industry as owner-operators. AB-5 effectively bars the
traditional owner-operator relationship in that industry,
a relationship that is essential in an industry where
demand for services is cyclical. Nevertheless, the Ninth
Circuit condoned what effectively amounts to California’s
restructuring of its trucking industry, an action having
profound impact on the amici’s members.
(2) Owner-Operators in the Trucking Industry
Owner-operators have long been important in the
trucking industry. See generally, Douglas C. Grawe, Have
Truck, Will Drive: The Trucking Industry and the Use
of Independent Owner-Operators Over Time, 35 Transp.
L.J. 115 (2008). They are used in most, if not all, sectors
of the industry, including long-haul trucking, householdgoods moving, and intermodal operations. Because
demand in the contemporary American trucking industry
fluctuates so dramatically, as the COVID pandemic has
only confirmed, the industry is structured around these

4
independent owner-operators, who provide carriers
with a flexible supply of trucking equipment. Given the
cyclical nature of demand for carrier services, this only
makes sense. It is uneconomic for carriers to invest in
truck tractors and trailers, often involving an expense of
tens of thousands of dollars, 2 only to have such expensive
equipment languish unused in those carriers’ yards in
economic down times. Carriers contract with owneroperators, who own their own equipment, for the lease of
their equipment in times of greater demand.
Owner-operators are generally small businesses
whose owners value their independence.3 Those individuals
prefer to be independent businesses rather than trucking
carrier employees. In fact, owner-operators protested the
enactment of AB-5. As evidence of the owner-operators’
desire for independence, the San Francisco Chronicle
from November 6, 2019 reported on one driver’s opinion:
“I don’t want to work under someone else
anymore,” said Parmjit Singh of Pittsburg, who
2. The district court here noted that a tractor, the main
“truck” of a traditional semitruck, could cost in excess of $100,000.
California Trucking Ass’n v. Becerra, 433 F. Supp. 3d 1154, 1158
(S.D. Cal. 2020). That expense does not include the trailer on which
the cargo is actually carried. The expense of such a trailer can
range from $30,000 for used trailers to $60,000 or more for a new
one, according to an OOIDA survey.
3. A national organization, the Owner-Operator Independent
Drivers Association (“OOIDA”) has 167,000 members nationally
who value their business independence. https://www.ooida.com/
WhoWeAre/. OOIDA estimates that there may be 350,000 or more
owner-operators in the United States. https://www.ooida.com/wpcontent/uploads/2021/03/Trucking-Facts.pdf (“OOIDA Facts”).

5
paid $215,000 two years ago for his 10-wheeler
Peterbilt dump truck, capable of hauling 18
tons. “Now if I don’t like (a potential job), I can
say no. If it’s in San Jose, I say that’s too far for
me. If you’re an employee, you cannot say no.”
https://www.sfchronicle.com/business/article/Truckersprotest-California-gig-work-law-that-14815249.php.
Becoming an owner-operator is also frequently
an avenue for minority-owned businesses to enter the
trucking industry. Paul Enos testified for the Nevada
Trucking Association, Inc. at a 2021 Nevada legislative
committee hearing, confirming the opportunity owneroperator status offered minorities:
Minorities make up 41.5 percent of our truck
drivers. I do not know if you have noticed as you
travel up and down the interstates and stop at
truck stops, but you can get some of the best
Indian food today. This is actually in Fernley.
They are serving the drivers out there on the
highway.
It is really interesting to me when talking to
my members about the immigrant experience
and the folks who are coming to America from
India, Eastern Europe, and South America.
Some of those folks want to be company drivers,
but most of them want to be independent
contractors, so we have a tremendous number
of owner-operators. Why do they want to come
to America and be an owner-operator? Because
they can set their own schedule. If they can

6
work ten months out of the year, they still have
two months when they can go home to see their
families. It really is a great place for someone
who still wants to have that connection to their
home country to be able to come over here,
become an owner-operator, and then decide
when they are going to work.
https://www.leg.state.nv.us/Session/81st2021/Minutes/
Assembly/G1/final/281.pdf at p. 28.
OOIDA reports that 6% of owner-operators are
women, 21% are minorities, and 34% are veterans. OODIA
Facts. This is consistent with Census Bureau data. https://
www.census.gov/library/stories/ 2019/06/america-keepson-trucking.html. Indeed, a significant array of minority
trucking associations, such as the National Minority
Trucking Association, Women in Trucking, the Laredo
Motor Carriers Association, and the North American
Punjabi Trucking Association, have owner-operator
members.
For owner-operators, an independent-contractor
relationship is beneficial. In this era of increased shipping
demand because of internet shopping, today’s shippers
are sophisticated and now look for “one stop” shopping
for their shipping needs. It would thus be extremely
difficult for an individual owning a single truck to compete.
By contracting with large trucking carriers, owneroperators can overcome this obstacle and still maintain
a small business. The firms give owner-operators access
to higher-paying freight than they would have access to
if they operated under their own authority and make it
easier for owner-operators to obtain insurance.

7
In sum, owner-operators are essential for the
amici’s members, the relationship is beneficial to owneroperators, and the relationship is vital to America’s
trucking industry.
(3) The Relationship Between Carriers and OwnerOperators Is Strictly Regulated by Federal Law
and Supervised by Federal Agencies
Not only do the United States Department of
Transportation (“USDOT”) and the Federal Motor
Carrier Safety Administration (“FMCSA”) regulate
trucking generally, federal law specifically governs the
terms of the relationship between trucking carriers and
owner-operators.
Cong ress directed USDOT to reg ulate lease
agreements between carriers and owner-operators. 49
U.S.C. § 14102(a). The federal government requires all
motor carriers to engage owner-operators through a
written lease agreement, as provided in 49 C.F.R. Part 376,
colloquially known as the Truth-in-Leasing regulations.
Owner-Operator Independent Drivers Ass’n v. Swift
Transportation Co., Inc., 367 F.3d 1108, 1110 (9th Cir. 2004)
(referencing regulation in 49 C.F.R. Part 376 as Truth-inLeasing regulations); In re Arctic Express, Inc., 636 F.3d
781, 796 (6th Cir. 2011) (same; noting ICC promulgation
of initial Truth-in-Leasing regulations in 1979). These
regulations not only require a written lease contract,
but also specify actual mandatory terms to be included
in any equipment lease agreement between carriers and
owner-operators. See, e.g., 49 C.F.R. §§ 376.11, 376.12,
382.601. In addition to specifying specific compensation
terms for owner-operators, in the interest of public safety,

8
the regulations mandate that owner-operators operate
exclusively under a carrier’s federal license granted by
the USDOT and that the owner-operator be insured by
the carrier (although the owner-operator must pay for
that insurance). They require owner-operators’ drivers to
undergo mandatory drug testing. They require carriers
to give written authorization for owner-operators to have
passengers in a truck, or to lease equipment to other
carriers. These requirements promote the federal interest
in public safety on America’s roadways by ensuring that
all trucks are covered by adequate insurance and by
facilitating the collection of safety data for carriers. See
generally, Jessica Goldstein, The Lease and Interchange
of Vehicles in the Motor Carrier Industry, 32 Transp. L.
J. 131 (Spring 2005).
The lease agreements usually also provide that the
owner-operator has complete control over the selection of
drivers or laborers for the trucks, and over the selection
of the routes for the delivery of the cargo the carriers
ask them to deliver. The owner-operators also determine
employee hours, stops/rest breaks, attendance and
performance standards, and general working conditions.
The owner-operators may reject loads offered to them
by the carriers. Critically, although the carriers might
advance expenses to the owner-operators as a convenience,
as federal regulations permit, 49 C.F.R. § 376.12(h), the
owner-operators are ultimately responsible for the cost of
the operation of their equipment including general vehicle
maintenance, insurance, permits, base plates, license fees,
taxes, fuel, lubricants, cold weather protection, tie-down
gear and cargo protection equipment, tires, tolls, fines,
and driver wages and payroll taxes. The owner-operators
area often paid a percentage of the fee paid to the carrier

9
by the customer. See, e.g., Coffman v. Unigroup, Inc., 2019
WL 3323369 (M.D. Fla. 2019).
Not only is trucking a national industry, as Congress
has determined, the relationship between trucking
carriers and owner-operators is predominantly governed
by federal law.
(4) Preemptive Effect of the FAAAA
As CTA’s petition notes at 6-8, when Congress deregulated interstate trucking in 1980 and intrastate
trucking in 1994, it sought to remove obstacles to “national
and regional carriers attempting to conduct a standard
way of doing business.” Cole v. City of Dallas, 314 F.3d
730, 734 (5th Cir. 2002) (quoting H. R. Conf. Rep. No.
103-677, at 87, reprinted in 1994 U.S.C.C.A.N. at 1759). It
enacted the FAAAA’s express preemption to make sure
market forces would prevail and that national interests
would govern the industry; local jurisdictions would not
re-regulate the trucking industry in a “patchwork of
state-service determining laws, rules, and regulations.”
Rowe v. New Hampshire Motor Transp. Ass’n, 552 U.S.
364, 367-68, 370-71, 378 (2008).
The FA A A A’s preemptive language bars states
from “enacting or enforcing a law, regulation, or other
provision . . . related to a price, route, or service” of any
carrier with respect to the transportation of property.
49 U.S.C. § 14501(c)(1) (emphasis added). This Court has
mandated that FAAAA preemption must be construed
broadly, consistent with its expansive interpretation of
similar preemptive language enacted by Congress for
airline deregulation. Rowe, 552 U.S. at 370-71 (Congress

10
adopted FAAAA preemptive language knowing of broad
construction of same language); Morales v. Trans World
Airlines, Inc., 504 U.S. 374, 383-84 (1992). In fact, this
Court specifically rejected a non-statutory categorical
exemption for local policies that uphold “public health.”
Id. at 374 (“The Act says nothing about a public health
exception.”).
Given this broad federal preemption and the
importance of owner-operators to the trucking industry,
every time a state or local government has attempted to
directly ban owner-operators in the industry, courts have
held such efforts to be FAAAA-preempted. 4 Indeed, the
Ninth Circuit in Cal. Trucking Ass’n v. Su, 903 F.3d 953,
964 (9th Cir. 2018), cert. denied, 139 S. Ct. 1331 (2019),
observed that it was an “obvious proposition that an ‘all
or nothing’ rule requiring services to be performed by
certain types of employee drivers and motivated by a
State’s own efficiency and environmental goals was likely
preempted.”
AB-5 represents nothing but a backdoor effort to ban
owner-operators in the trucking industry.

4. E.g., American Trucking Ass’ns, Inc. v. City of Los
Angeles, 596 F.3d 602, 604-05 (9th Cir. 2010) (local regulation
developed in the guise of promoting port environmental policies
prohibiting use of independent contractor drivers at port was
preempted); In re Federal Preemption of Provisions of the Motor
Carrier Act, 566 N.W.2d 299, 308–09 (Mich. App. 1997), review
denied, 587 N.W.2d 632 (Mich. 1998), cert. denied, 525 U.S.
1018 (1998) (striking down as FAAAA-preempted a regulation
mandating that a truck be operated only by persons who were
employees of the trucking carrier).

11
(5) AB-5 Effectively Eliminates the Owner-Operator
Business Model in the Trucking Industry in
Violation of the FAAAA
AB-5 regulates trucking carriers’ relationship with
owner-operators by codifying the so-called ABC test adopted
by the California Supreme Court in Dynamex Operations
W. v. Superior Court, 4 Cal. 5th 903, 416 P.3d 1 (2018) for
determining if an employer-employee relationship is present.
The B element of the test makes it virtually impossible for
an owner-operator to ever be an independent contractor
because it presumes a worker is an employee unless the
worker performs work outside the usual course of the hiring
entity’s business. Obviously, trucking carriers invariably hire
owner-operators to perform trucking services so that the B
element of the ABC test can never be met.5
5. The district court here pointedly observed that the
ABC test effectively made owner-operators invariably carrier
employees:
During the January 13, 2020 hearing, the Court
repeatedly invited Defendants to explain how the ABC
test was not an “all or nothing” test. Specifically, the
Court invited them to explain how a motor carrier
could contract with an independent owner-operator as
an independent contractor, rather than as an employee,
under the ABC test. Neither the State nor Intervenor
could provide an example. Instead, Defendants
repeatedly asserted that a broker company that did not
perform trucking work could plausibly contract with an
independent owner-operator. Brokers, however, are not
motor carriers. Accordingly, the Court observes that the
ABC test appears to be rigged in such a way that a motor
carrier cannot contract with independent contractor
owner-operators without classifying them as employees.
433 F. Supp. 3d at 1165 n.9 (court’s emphasis).

12
California has effectively deprived a federallyregulated industry of the right to use the owner-operator
business model. 6 As such, the State’s actions affect prices,
routes, and services in the industry. California’s AB-5 is
no different than the outright ban of owner-operators by
the Ports of Los Angeles/Long Beach or the Michigan
Legislature.
California’s AB-5 will have an enormous effect on
the amici’s member trucking carriers and the American
trucking industry generally. As the State with the most
powerful economy, California will affect amici’s carriers
traveling to and from California. The Trucker newspaper
reports on its website in discussing California’s trucking
industry that its proximity to Mexico and the Pacific,
its connections with Oregon, Arizona, and Nevada, its
powerful state economy, and its ports all make California
a gateway to America. “Of the western states, none has
6. Ultimately, at its most basic, under the analysis that is
at the core of the FAAAA’s express preemptive language, AB-5
re-regulates (and makes illegal) what federal law specifically has
determined is legal in the trucking industry (the owner-operator
business model). Hillman v. Maretta, 569 U.S. 483, 490 (2013) (a
conflict is present “when compliance with both federal and state
regulations is impossible.”). Stated another way, preemption is
required if the state law is an obstacle to the accomplishment of
the purposes and objectives of Congress. Id. at 1950. See also,
Remington v. J.B. Hunt Transport, Inc., 2016 WL 4975194 (D.
Mass. 2016) (claim that the deduction of expenses for repairs,
cargo losses, insurance, or administrative fees from owneroperator compensation constituted “control” by carriers where
the owner-operator regulations of 49 C.F.R. Part 376 authorized
such deductions was preempted; as the court succinctly observed:
“What is explicitly permitted by federal regulations cannot be
forbidden by state law.” Id. at *4.).

13
a greater impact on the U.S. economy …” https://www.
thetrucker.com/truck-driving-jobs/resources/states/
california.
Just as political pressure resulted in AB-5’s enactment
by the California Legislature, legislatures in other States
will face pressure to enact counterpart statutes. Courts
in other States will be inclined to follow the rationale of
the California Supreme Court in Dynamex.7
At a minimum, even if not all States follow California’s
approach, a patchwork of local laws governing a crucial
relationship in the national trucking industry is the result.
Massachusetts enacted a statute akin to AB-5. Courts
interpreting it have held that it is FAAAA-preempted with
regard to its second statutory element, or the B element
of the ABC rule, as it relates to the trucking industry
because it affects prices, routes, or services by effectively
eliminating a particular employment or business model in
the trucking industry, and creating a patchwork of state
laws, contrary to the deregulation intent of Congress. See
Sanchez v. Lasership, Inc., 937 F. Supp. 2d 730 (E.D. Va.
2013); Massachusetts Delivery Ass’n v. Coakley, 769 F.3d
11, 17 (1st Cir. 2014); Schwann v. FedEx Ground Package
Sys., Inc., 813 F.3d 429 (1st Cir. 2016); Mass. Delivery
Ass’n v. Healey, 821 F.3d 187 (1st Cir. 2016).
Although New Jersey has a statute prescribing the
elements of the employer-employee relationship, the
Third Circuit in Bedoya v. American Eagle Express,
Inc., 914 F.3d 812 (3d Cir. 2019) held that the FAAAA
7. State courts may, of course, choose to import the ABC test
into their common law.

14
did not preempt it because its element B provided
that an independent contractor relationship could be
present if the service could be performed outside all
of the places of business of the hiring entity for which
the contractor’s services were performed. Thus, the
statute was unlike Massachusetts’ law that “bound the
carrier to provide its services using employees and not
independent contractors.” Id. at 822. The New Jersey test
did not categorically bar carriers from using independent
contractors. Id. at 824. AB-5 does so.
And a patchwork of state laws is not mere rhetoric.
Like California after AB-5, Washington state courts
have determined that carriers must pay unemployment
compensation taxes for owner-operators. Swanson Hay
Co. v. State Emp. Security Dep’t, 1 Wn. App. 2d 174,
404 P.3d 517 (2017), review denied, 191 Wn.2d 1004,
cert. denied, 139 S. Ct. 605 (2018). Washington State’s
neighboring states, Oregon and Idaho, however, have held
carriers to be exempt from unemployment compensation
taxation for owner-operators. See CEVA Freight, LLC v.
Employment Dep’t, 279 Or. App. 570, 379 P.3d 776, review
denied, 360 Or. 751 (2016); Home Transp., Inc. v. Idaho
Dep’t of Labor, 318 P.3d 940 (Ida. 2014). Thus, a trucking
carrier whose owner-operators drive in Washington must
cover them for unemployment compensation but not when
the owner-operators are operating in those neighboring
states, a headache for Northwest trucking carriers.
And if owner-operators must invariably be treated
as carrier employees, this fact has enormous economic
consequences for trucking firms. As noted supra, such a
determination subjects carriers to State unemployment
compensation t a x ation. Si m i la rly, St at e worker

15
compensation laws may apply to the relationship requiring
carriers to pay premiums for owner-operators. See, e.g.,
Delivery Express, Inc. v. Sacks, 728 Fed. Appx. 730 (9th
Cir. 2018); Henry Industries, Inc. v. Dep’t of Labor &
Indus., 195 Wn. App. 593, 381 P.3d 172 (2016). Carriers
may also be required to observe state wage and hours
laws as to owner-operator employees. See, e.g., Costello v.
BeavEx, Inc., 810 F.3d 1045 (7th Cir. 2016), cert. denied,
137 S. Ct. 2289 (2017) (Illinois wage laws); Dilts v. Penske
Logistics, LLC, 769 F.3d 637 (9th Cir. 2014), cert. denied,
575 U.S. 996 (2015) (California meal and rest break laws);
Bostain v. Food Express, 159 Wn.2d 700, 153 P.3d 846,
cert. denied, 552 U.S. 1040 (2007) (Washington overtime
wage laws). The financial ramifications for carriers are
extraordinary.
The reality of AB-5’s effective ban on the owneroperator model for trucking carriers is that such carriers
will be put to a choice. They can restructure their business
and make all drivers company employees. 8 If they do
so, the impact on prices, routes, or services is manifest.
Trucking companies will face the expense of permanent
compensation and benefits for drivers as employees, even
when there are times when such permanent drivers are
unneeded due to the cyclical nature of service demand
for such companies. They will be obliged to pay statemandated unemployment compensation taxes and worker

8. But that argument is unrealistic, and impractical as the
district court in Healey noted in rejecting a similar argument.
Such an approach was a “significant burden,” that could be found
nowhere in actual practice. Mass. Delivery Ass’n v. Healey, 117
F. Supp. 3d 86, 95 (D. Mass), aff’d, 821 F.3d 187 (1st Cir. 2016).

16
compensation premiums. 9 Most critically, if trucking
carriers cannot use owner-operators, they will need to
purchase equipment for company drivers. Such equipment
is expensive and may often sit idle as cargo needs fluctuate.
These are real costs, and they will impact prices.
This interference has a logical effect on routes. As
the First Circuit in Schwann explained, independent
contractors assume “the risks and benefits of increased
or decreased efficiencies achieved by the selected routes,”
while employees would likely “have a different array of
incentives that could render their selection of routes less
efficient.” 813 F.3d at 439. Forcing a carrier to treat owneroperators as employees relates to routes, in addition to
prices and services.
Finally, the States’ imposition of an unwanted
business model – employees rather than owner-operators
– on trucking firms impact trucking industry services.10
9. The district court in Healey explained that the “potential
logical, if indirect, effect of Section 148B is to increase [the
carrier’s] prices by increasing its costs.” Healey, supra at 93. The
court ruled that the logical relation to prices could not be averted
simply by claiming that cost increases were slight. Id.
10. Such a State effort to supplant the owner-operator
business model for trucking companies with a model of the
government’s choosing necessarily constitutes an effort to
supplant market forces with State regulation, something the
FAAAA was specifically designed to forestall. As the First Circuit
noted in Schwann, whether to provide services through employees
or through independent contractors is a significant business
decision which “implicates the way in which a company chooses
to allocate its resources and incentivize those persons providing
the service.” Schwann, 813 F.3d at 438. Local interference with

17
FAAAA preemption is intended to prevent States from
substituting their “own governmental commands for
‘competitive market forces’ in determining (to a significant
degree) the services that motor carriers will provide.”
Rowe, 552 U.S. at 372 (quoting Morales, 504 U.S. at 378).
As the district court in Healey explained, if a carrier
wishes to fulfill on-demand requests for unscheduled
deliveries with employee drivers, it necessarily must have
on-call employees available. “Retaining on-call employees
forces [the carrier] to incur costs that translate into
increased prices. . . . Conversely, if [the carrier] endeavors
to maintain its current prices, then the practical effect
of [the statute] is to force it to abandon a service now
demanded by the competitive marketplace.” 117 F. Supp.
3d at 93.
To remain competitive, California trucking firms,
and firms in other jurisdictions employing the ABC
test, that rely on owner-operators as a flexible supply
of equipment will have to change how they do business,
adopting some combination of: (a) reducing their capacity
to respond to fluctuating demand for transportation
services; (b) increasing their operating costs by adding
new employees and equipment, which would sit idle
during leaner times; or (c) raising prices to account for
increased costs and/or taxes. Firms in other jurisdictions
will of necessity be faced with an untenable choice:
accommodating California reg ulations requir ing
employee drivers or abandoning operations in California
carriers’ decision to lease equipment would pose “a serious
potential impediment to the achievement of the FA A A A’s
objectives because a court, rather than the market participant,
would ultimately determine what services that company provides
and how it chooses to provide them.” Id.

18
altogether. Carriers will be compelled to increase prices
to address California’s requirements. Market demands
will be ignored. Freight involving California will be
delayed for lack of firms avoiding costly regulations. All
of these changes from the owner-operator business model
constitute a direct interference with carriers’ services.
In sum, AB-5 affects carrier prices, routes, or services
within the meaning of the FAAAA.

19
CONCLUSION
The Ninth Circuit misapplied this Court’s FAAAA
precedents in analyzing AB-5, creating an effective
exemption for owner-operators from the express federal
preemption of local laws affecting prices, routes, or
services in the trucking industry enacted by Congress.
In effect, California’s AB-5 effectively bans owneroperators in that vital national industry. The FAAAA’s
language does not authorize an exception to Congressional
preemption policy for owner-operators any more than it
did “public health” as this Court ruled in Rowe.
A vital business structure for an entire industry is
implicated by AB-5, as legislatures and courts in other
jurisdictions will likely follow the California model. The
use of owner-operators drives today’s modern trucking
industry. This Court should grant review of the Ninth
Circuit’s decision in order to vindicate the critical federal
policy of deregulation in the trucking industry, and to
avoid the effective state re-regulation of trucking.
				

Respectfully submitted,
Philip A. Talmadge
Counsel of Record
Talmadge/Fitzpatrick
2775 Harbor Avenue SW,
3rd Floor, Suite C
Seattle, WA 98126
(206) 574-6661
phil@tal-fitzlaw.com
Counsel for Amici Curiae

APPENDIX

1a
AppendixAppendix
— LIST OF AMICI
Alabama Trucking Association, Inc.
Alaska Trucking Association, Inc.
Arizona Trucking Association
Arkansas Trucking Association
Colorado Motor Carriers Association
Delaware Motor Transport Assoc. Inc.
Florida Trucking Association, Inc.
Georgia Motor Trucking Association, Inc.
Hawaii Transportation Association
Idaho Trucking Association
Illinois Trucking Association, Inc.
Indiana Motor Truck Association, Inc.
Iowa Motor Truck Association, Inc.
Kansas Motor Carriers Association
Kentucky Trucking Association, Inc
Louisiana Motor Transport Association, Inc.

2a
Appendix
Maine Motor Transport Association, Inc.
Maryland Motor Truck Association, Inc.
Michigan Trucking Association, Inc.
Mississippi Trucking Association
Missouri Trucking Association
Motor Carriers of Montana
Motor Transport Association of CT, Inc.
Nebraska Trucking Association
Nevada Trucking Association, Inc.
New Hampshire Motor Transport Assoc.
New Jersey Motor Truck Association
New Mexico Trucking Association
North Carolina Trucking Assoc., Inc.
North Dakota Motor Carriers Assoc., Inc.
Ohio Trucking Association
Oklahoma Trucking Association

3a
Appendix
Oregon Trucking Associations, Inc.
Pennsylvania Motor Truck Association
Rhode Island Trucking Association, Inc.
South Carolina Trucking Assoc., Inc.
South Dakota Trucking Association
Tennessee Trucking Association
Texas Trucking Association
Trucking Association of Massachusetts
Trucking Association of New York
Utah Trucking Association
Vermont Truck and Bus Association, Inc.
Virginia Trucking Association
Washington Trucking Associations
West Virginia Trucking Association, Inc.
Wisconsin Motor Carriers Association
Wyoming Trucking Association, Inc.

